    DEPARTMENT OF HEALTH & HUMAN SERVICES 	                                       Office of Inspector General



                                                                                  Washington, D.C 20201

                                                  JAN· 2 6·2012


TO: 	          Marilyn Tavenner
               Acting Administrator
               Centers for Medicare & Medicaid Services

                              /S/
FROM:          Stuart Wright
               Deputy Inspector General
                 for Evaluation and Inspections


SUBJECT: 	 Memorandum Report: Lack ofData Regarding Physicians Opting Out of
           Medicare,OEI-07-11-00340


This memorandum report provides information about data limitations that we
encountered while conducting a review of physicians who opted out of Medicare. The
lack of complete data prevented us from conducting a full review ofphysicians who have
opted out of Medicare. We plan to conduct a full evaluation when a complete data source
of opted-out physicians is available.

SUMMARY

In April 2011, we began an evaluation entitled Impact ofPhysicians Opting Out of
Medicare. The objectives of the evaluation were to determine the extent to which and
reasons why physicians opt out of the Medicare program, and the effects of physician
opt-out on Medicare beneficiaries. We specifically sought to answer:

    • 	 What are the characteristics (i.e., specialty, location, practice type, gender) of
        physicians who opt out of Medicare?
    • 	 Has the number of opted-out physicians increased or decreased over time?
    • 	 Why do physicians choose to opt out of the program?

In the course of our review, we determined that the Centers for Medicare & Medicaid
Services (CMS), Medicare Administrative Contractors (MACs), and legacy carriers
(i.e., Medicare claims payment contractors) do not maintain sufficient data regarding
physicians who opt out of Medicare. As a result, we are wlable to conduct the proposed
evaluation at this time.
Page 2 – Marilyn Tavenner


Although the percentage of physicians who choose to opt out may be small (perhaps less
than 1 percent 1), monitoring the number of opted-out physicians and their specialties is
important to ensure that Medicare beneficiaries have sufficient access to providers,
including specialized providers. Additionally, having appropriate data on opted-out
physicians is essential to ensuring that such physicians are not inappropriately receiving
Medicare payments. Based on the limited data that we received, the number of opted-out
physicians appears to have increased each year from 2006 to 2010. Section 1848(f) of
the Social Security Act (SSA) specifies a sustainable growth rate (SGR) for all physician
services, which is intended to control the aggregate growth of Medicare expenditures for
these services. Unless Congress intervenes, the SGR would cause Medicare physician
payments to decrease by 27.4 percent in 2012. 2 The Texas Medical Association (TMA)
states on its Web site, “This decade-long and continued uncertainty is forcing some
physicians to make a difficult decision to either opt out of Medicare, limit the number of
patients they treat, or retire early. A TMA survey [from August 2011] indicates that
50 percent of Texas physicians are considering opting out of the Medicare program
altogether.” 3

BACKGROUND

Prior to passage of the Balanced Budget Act of 1997 (BBA), physicians did not have a
mechanism for opting out of the Medicare program to contract privately with Medicare
beneficiaries. 4 As amended by the BBA, section 1802 of the SSA allowed physicians to
opt out of the Medicare program for 2-year intervals starting in 1998.

Physician Provision of Services to Medicare Beneficiaries
In general, physicians must enroll in the Medicare program to provide services to
Medicare beneficiaries. Once enrolled, physicians agree to abide by Medicare laws,
regulations, and program instructions. 5 Physicians who provide Medicare-covered
services to Medicare beneficiaries must file claims on the beneficiaries’ behalf within
1 year, or face civil monetary penalties. 6 Participating physicians agree to accept
assignment (i.e., the Medicare-allowed amount) for covered services; nonparticipating
physicians are limited to 115 percent of the Medicare-allowed amount for the service. 7

A third option available to physicians is to opt out of the Medicare program, which
allows them to enter into private contracts with Medicare beneficiaries. Medicare policy
changes that decreased physician reimbursement and increased administrative burden
have been factors associated with physicians’ decisions to opt out of the Medicare
program. 8 These changes include decreases in the Medicare fee schedule, increased


1
  Buczko, William, “Provider Opt-Out Under Medicare Private Contracting,” Health Care Financing Review, Winter 2004-2005,
Vol. 26, No. 2.
2
  76 Fed. Reg. 73026, 73277 (Nov. 28, 2011).
3
  TMA, Medicare Meltdown Redux Fact Sheet. Accessed at http://www.texmed.org/ on November 16, 2011.
4
  BBA, P.L. 105-33 § 4507.
5
  CMS, Form 855i, Medicare Enrollment Application, p. 25, July 2011.
6
  SSA §§ 1848(g)(4)(A) and 1848(g)(4)(B)(ii).
7
  SSA §§ 1842(h)(1), 1848(g)(1)(A), and 1848(g)(2)(C).
8
  Buczko, William, “Provider Opt-Out Under Medicare Private Contracting,” Health Care Financing Review, Winter 2004-2005,
Vol. 26, No. 2.



OEI-07-11-00340               Lack of Data Regarding Physicians Opting Out of Medicare
Page 3 – Marilyn Tavenner


monitoring of claim coding, and increased fines and prosecution for fraud and abuse. 9 If
physicians wish to provide services to Medicare-eligible beneficiaries through private
contracts and not bill Medicare, they must opt out of the Medicare program and renew
their opt-out status every 2 years. Physicians who have never enrolled in the Medicare
program must still opt out if they plan to treat Medicare beneficiaries through private
contracts. 10

Private Contracts. Any physician who opts out of the Medicare program may enter into
private contracts with Medicare beneficiaries; however, the contracts must meet the terms
and conditions outlined in Federal regulations. 11 These private contracts must state that
the physician has chosen to opt out of the Medicare program, and that the beneficiary or
beneficiary’s legal representative accepts full responsibility for payment of the
physician’s charge for all services. Because Medicare charge limits do not apply to
physicians who opt out of the program, the contracts must clearly state that the
beneficiary has the right to receive services provided by other physicians who have not
opted out of the program and are willing to accept Medicare payments. The beneficiary
or the beneficiary’s legal representative agrees not to submit a claim to Medicare or to
ask the physician to submit a claim to Medicare on his or her behalf. Physicians who opt
out of the Medicare program must sign a new contract with each beneficiary at the
beginning of each 2-year period for which they have chosen to opt out of the Medicare
program. 12

Physician and Medicare Administrative Contractor Responsibilities
Physicians who elect to opt out of the Medicare program must sign written affidavits
stating that they will comply with Federal requirements for opting out. These
requirements provide that:

     •    physicians may not submit claims to Medicare for any service provided during
          their 2-year opt-out period, beginning on the date the affidavit is signed; 13 and
     •    physicians may not receive direct or indirect Medicare payment for services
          furnished to Medicare beneficiaries with whom they have privately contracted. 14

CMS uses MACs to enroll providers and process Medicare claims. No later than 10 days
after the physician enters into the first private contract with a beneficiary, the physician
must file a signed affidavit with all MACs that have jurisdiction over claims that the
physician would otherwise file with Medicare. This requirement is intended to ensure
that a MAC can prevent improper payments to opted-out physicians. However, an
opted-out physician may submit claims to Medicare for emergency and urgent care
services provided to beneficiaries who have not signed private contracts with that



9
  Ibid.
10
   CMS, Medicare Benefit Policy Manual [Internet-Only Manual], Pub.100-02, ch. 15, § 40.13. Accessed at
http://www.cms.hhs.gov/Manuals/IOM/list.asp on June 14, 2011.
11
   42 CFR § 405.415.
12
   42 CFR § 405.415(o).
13
   SSA § 1802(b)(3)(B)(ii).
14
   Ibid.



OEI-07-11-00340               Lack of Data Regarding Physicians Opting Out of Medicare
Page 4 – Marilyn Tavenner


physician. 15 In addition, an opted-out physician may refer and order services to be
provided by a non-opted-out physician. 16

MACs are required to maintain information about opted-out physicians. 17 At a
minimum, MACs must maintain: (1) the name of the physician, (2) the physician’s
National Provider Identifier (NPI), (3) the effective date of the opt-out affidavit, and (4)
the end date of the opt-out period. MACs may maintain additional data elements at their
discretion. MACs are required to provide CMS with quarterly counts of newly opted-out
physicians by physician specialty; however, they are not required to identify the
physicians by name or NPI in their reports. 18 To keep Medicare managed care plans
apprised of which physicians have opted out, MACs must develop data exchange
mechanisms with managed care plans in their service area. 19 MACs may establish a Web
site to meet this requirement.

METHODOLOGY

We sought to obtain data on opted-out physicians both from CMS and from individual
MACs and legacy carriers (i.e., Medicare claims payment contractors that remain in
jurisdictions not yet awarded to MACs). A CMS official provided us with a list of
approximately 7,900 opted-out providers (e.g., physicians and nonphysician
practitioners), which included opted-out providers from 1998 to March 2011. This
official indicated that the data were updated by using the lists of opted-out providers
posted on MAC and legacy carrier websites. These data did not indicate the end dates of
the opt-out periods. In some cases, affidavit effective dates were as early as 1998;
however, there was no information to indicate whether the opt-out extended past the
initial 2-year opt-out period. The CMS official stated that the MACs and legacy carriers
would have the best available data on opted-out physicians.

In July 2011, we requested information from each MAC and legacy carrier regarding
opted-out physicians for the period January 2009 through June 2011. Our request
specifically called for the following data elements: (1) demographic (i.e., name, address,
and NPI) and specialty information for each opted-out physician, (2) effective date of
opt-out, and (3) if applicable, date of the physician’s return to Medicare
(i.e., reinstatement date). We note that these data elements are a combination of (1) data
elements that CMS requires MACs and legacy carriers to maintain for opted-out
physicians, and (2) data elements accessible in their internal enrollment databases or the
Provider Enrollment Chain Ownership System (PECOS). We requested this information
from all 10 MACs and 6 legacy carriers that pay Part B Medicare claims. After at least
three requests via telephone and email, as of September 2011 we had received data from

15
   CMS, Medicare Benefit Policy Manual [Internet-Only Manual], Pub.100-02, ch. 15, § 40.28.   Accessed at
http://www.cms.hhs.gov/Manuals/IOM/list.asp on June 14, 2011.
16
   CMS, Medicare Benefit Policy Manual [Internet-Only Manual], Pub.100-02, ch. 15, § 40.32.   Accessed at
http://www.cms.hhs.gov/Manuals/IOM/list.asp on June 14, 2011.
17
   CMS, Medicare Benefit Policy Manual [Internet Only Manual], Pub.100-02, ch. 15, § 40.20.   Accessed at
http://www.cms.hhs.gov/Manuals/IOM/list.asp on June 14, 2011.
18
   CMS, Medicare Benefit Policy Manual [Internet Only Manual], Pub.100-02, ch. 15, § 40.40.   Accessed at
http://www.cms.hhs.gov/Manuals/IOM/list.asp on June 14, 2011.
19
   CMS, Medicare Benefit Policy Manual [Internet Only Manual], Pub.100-02, ch. 15, § 40.21.   Accessed at
http://www.cms.hhs.gov/Manuals/IOM/list.asp on June 14, 2011.



OEI-07-11-00340                Lack of Data Regarding Physicians Opting Out of Medicare
Page 5 – Marilyn Tavenner


seven MACs and four legacy carriers. However, the data provided were often
incomplete. Only one MAC and one legacy carrier provided all data elements that CMS
requires.

Table 1 shows the number of MACs and legacy carriers that provided each data element
in response to our request. Detailed information can be found in the Appendix.
Table 1: Number of MACs and Legacy Carriers That Provided Data Elements

                                                 Number of
                                                 MACs/Legacy
     Data Element
                                                 Carriers
                                                 (n=11)
     Physician Name                                          11
     NPI                                                      5
     Specialty                                               10
     Address                                                  7
     Opt-Out Effective Date                                  11
     Opt-Out Expiration Date                                  6
     Reinstatement Date                                       3

Standards
This study was conducted in accordance with the Quality Standards for Inspection and
Evaluation issued by the Council of the Inspectors General on Integrity and Efficiency.

RESULTS

We were unable to answer the issue questions in our proposed study on opted-out
physicians because no centralized data exist and the data that we received from MACs
and legacy carriers were insufficient or not provided at all. Specifically, we cannot
determine the characteristics of physicians who opt out of Medicare, the trend in the
number of opted-out physicians, or why physicians choose to opt out of Medicare.

No Centralized Data on Opted-Out Physicians Exist
We sought to obtain data on opted-out physicians from CMS; however, CMS currently
maintains no such data. A CMS official stated that the MACs and legacy carriers would
have the most complete data. We note that entering data into PECOS could be one
method to compile centralized data on opted-out physicians. However, a CMS official
stated that some, but not all MACs and legacy carriers have been entering opt-out data
into PECOS from information contained on physician affidavits received since
January 1, 2010. In September 2011, CMS issued guidance to MACs and legacy carriers,
effective immediately, about entering opt-out affidavit information into PECOS. Further
guidance—issued in November 2011 and effective April 1, 2012—requires MACs and
legacy carriers to capture opt-out affidavit information from affidavits received on or
after January 1, 2009.




OEI-07-11-00340      Lack of Data Regarding Physicians Opting Out of Medicare
Page 6 – Marilyn Tavenner


Not All MACs and Legacy Carriers Reported Data to OIG
Despite at least three requests via telephone and email, we did not receive data from 3 of
10 MACs and 2 of 6 legacy carriers. Without data from all MACs and legacy carriers,
we cannot create a complete universe of opted-out physicians. Without a complete list,
we cannot sample opted-out physicians for the purposes of conducting interviews with
them.

MACs and Legacy Carriers Failed to Maintain Required Elements
The MACs and legacy carriers are not maintaining all required data elements for
opted-out physicians. For example, not all MACs and legacy carriers are tracking the
expiration dates of affidavits. In cases in which these dates are tracked, it is unclear
whether the information is used to ensure that those physicians who were once enrolled in
Medicare are automatically reenrolled in Medicare or are excluded from filing claims
until they actively reenroll in Medicare. The September 2011 guidance addresses the
steps that MACs and legacy carriers should take if the opt-out period expires without the
physician renewing the opt-out status or enrolling in Medicare.

CONCLUSION

The quality of the data and lack of procedures for MACs’ handling of opted-out
physicians impedes CMS’s oversight of this aspect of the Medicare program. Monitoring
the number of opted-out physicians and their specialties is important to ensure that
Medicare beneficiaries have sufficient access to providers. Based on the limited data that
we received, the number of opted-out physicians appears to have increased each year
from 2006 to 2010. More physicians may opt out in the near future, given the potential
for legislated decreases in Medicare reimbursement for physician services.

Although we acknowledge that CMS guidance addresses the procedures that MACs and
legacy carriers must have in place for processing opt-out affidavits, we believe that
further direction is necessary to account for data on physicians who filed affidavits
between 1998 and 2008. This information is essential for CMS’ oversight of opted-out
physicians, which would be aided by the ability to assess trends in the numbers and
locations of opted-out physicians. We plan to conduct a full evaluation when a complete
data source of opted-out physicians is available.

This report is being issued directly in final form because it contains no recommendations.
If you have comments or questions about this report, please provide them within 60 days.
Please refer to report number OEI-07-11-00340 in all correspondence.




OEI-07-11-00340       Lack of Data Regarding Physicians Opting Out of Medicare
 Page 7 – Marilyn Tavenner


 APPENDIX

 Data Elements Provided by Medicare Administrative Contractors and Legacy Carriers to
 the Office of Inspector General
                                                                        Data Elements Provided
 Contractor
 Jurisdiction/                 Physician
                                                 National       Specialty      Address          Opt-Out         Opt-Out
                                                                                                                                  Reinstatement
 Name                                            Provider                                      Effective      Expiration
                                  Name                                                                                                     Date
                                                Identifier                                         Date            Date

 Medicare Administrative Contractors

 1 and 11 – Palmetto                                                                                           

 3 – Noridian                                                                 No Data Received

 4 – Trailblazer                                                                                               

 5 – Wisconsin
                                                                                                
 Physicians Service

 9 – First Coast
                                                                                               
 Service Options

 10 – Cahaba                                                                                                    

 12 – Highmark                                                                No Data Received

 13 – National
                                                                              No Data Received
 Government Services

 14 – National
 Heritage Insurance                                                                                                               
 Corporation

 15 – Cigna                                                                                                                      

 Legacy Carriers

 Cahaba – Mississippi                                                                                           

 Cigna – Idaho                                                                                                                   

 National Government
                                                                              No Data Received
 Services – Indiana

 Noridian – Alaska,
                                                                              No Data Received
 Oregon, Washington

 Pinnacle – Arkansas,
                                                                                                               
 Louisiana

 Wisconsin
 Physicians Service –
                                                                                                
 Illinois, Michigan,
 Minnesota, Wisconsin

   Total                           11                5              10              7             11                6                 3

Source: Office of Inspector General analysis of data provided by Medicare administrative contractors and legacy carriers, 2011.




 OEI-07-11-00340                  Lack of Data Regarding Physicians Opting Out of Medicare
